<html>
<title> - A REVIEW OF THE EFFECTIVENESS OF VA'S VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





    A REVIEW OF THE EFFECTIVENESS OF VA'S VOCATIONAL REHABILITATION
                         AND EMPLOYMENT PROGRAM

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      THURSDAY, FEBRUARY 27, 2014

                               __________

                           Serial No. 113-55

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-668                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001    
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
BILL FLORES, Texas                   DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado                   Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD WENSTRUP, Ohio                  DINA TITUS, Nevada
                                     ANN KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                      Thursday, February 27, 2014

A Review of the Effectiveness of VA's Vocational Rehabilitation 
  and Employment Program.........................................     1

                           OPENING STATEMENTS

Hon. Bill Flores, Chairman.......................................     1

                                WITNESS

Mr. Daniel Bertoni, Director, Education, Workforce, and Income 
  Security U.S. Government Accountability Office.................     3
    Prepared Statement...........................................    23
Ms. Heather Ansley, Esq., MSW, Vice President of Veterans Policy 
  VetFirst.......................................................     5
    Prepared Statement...........................................    36
Mr. Paul Varela, Assistant National Legislative, Director Disable 
  American Veterans..............................................     7
    Prepared Statement...........................................    46
Mr. Jack Kammerer, Director, Vocational Rehabilitation and 
  Employment Service, Veterans Benefits Administration, U.S. 
  Department of Veterans Affairs.................................    14
    Prepared Statement...........................................    55

                        STATEMENT FOR THE RECORD

Paralyzed Veterans of America....................................    57
Wounded Warrior Project..........................................    60

                        QUESTION FOR THE RECORD

Question From: Hon. Flores to Jack Kammerer......................    61

 
  A REVIEW OF THE EFFECTIVENESS OF VA'S VOCATIONAL REHABILITATION AND 
                           EMPLOYMENT PROGRAM

                      Thursday, February 27, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
Room 334, Cannon House Office Building, Hon. Bill Flores 
[chairman of the subcommittee] presiding.
    Present:  Representatives Flores, Takano, Brownley, and 
Kirkpatrick.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good morning. The subcommittee will come to 
order.
    I want to begin by welcoming everyone to our first 
subcommittee hearing of the second session of the 113th 
Congress.
    Like you, I look forward to a productive session working 
with my friend and ranking member, Mr. Takano, and I want to 
thank all of you for being here this morning.
    Today the subcommittee will conduct an oversight hearing on 
the Vocational Rehabilitation and Employment or VR&E program at 
the Department of Veterans Affairs.
    This program and its VR&E counselors provide a wide array 
of rehabilitation and employment services through personalized 
rehab plans to help the most severely wounded and disabled 
veterans in employment or reach maximum independent living.
    I believe the VR&E program should be the crown jewel of 
benefits provided to veterans through the Veterans Benefits 
Administration since this program has the opportunity to 
provide veterans great services to transition them to 
independence and employment.
    While VR&E counselors continue to provide these vital 
services to our veterans, I believe, and I am sure our 
witnesses on the first panel would agree with me, that more 
must be done to improve the performance and the effectiveness 
of this program to ensure that veterans are receiving the 
services they deserve in a timely manner.
    A recent GAO report crystallized some of these concerns by 
highlighting VR&E's problems with accurate performance metrics, 
workload management issues, and consistency of services 
throughout the nearly 400 VR&E office locations.
    As I mentioned in our hearing last fall on VR&E's 
independent living program, I do not fault the VA's central 
office and field staff for many of these issues. I believe that 
most of these issues stem from the lack of attention and 
resources that are provided to the VR&E Service by senior VA 
leaders which has been VA's practice through many 
administrations regardless of party.
    VA's own testimony states that it saw a 14 percent increase 
in applications in fiscal year 2013 and as more and more 
veterans apply for disability benefits, I am sure that this 
number will only grow as budgets remain nearly flat.
    It is because of this growth in workload and issues raised 
by the GAO report that I recently introduced two pieces of 
legislation to help modernize the VR&E program, H.R. 4037, 
Improving Veterans Access to Vocational Rehabilitation and 
Employment Act of 2014, which streamlines processes of VR&E to 
help counselors tackle their ever-growing caseloads and ensure 
that the most severely-disabled veterans have timely access to 
the services that they need for maximum rehabilitation.
    H.R. 4038, the Veterans Benefits Administration Information 
and Technology Improvement Act of 2014, would require the VA to 
allocate more funding to update VR&E's corporate IT system 
called C-WINRS, C dash W-I-N-R-S, to improve oversight and 
tracking of taxpayer resources and the outcome of VR&E 
participants.
    My concerns about VR&E's IT system continue to be validated 
when I hear stories about VR&E's offices not having internet 
connectivity for months at a time or offices who have to rely 
on old, outdated fax machines and paper more than computers and 
technology solutions.
    I look forward to hearing testimony from our witnesses 
today and I hope to learn more about VA's plans to update their 
systems and implement the recommendations of the GAO's report.
    We all agree that this program has the ability to greatly 
improve the lives of veterans, but more work still needs to be 
done so that we fulfill our promise to every eligible veteran.
    With that, I will recognize the ranking member, Mr. Takano, 
for his opening remarks.
    Mr. Takano. Thank you, Mr. Chairman.
    Today we will hear statements and testimony about the 
effectiveness of the Department of Veterans Affairs' Vocational 
Rehabilitation Employment program, otherwise known as VR&E. 
This program was established to help eligible veterans find 
gainful employment and to facilitate their successful 
transition back into their communities.
    The VR&E program helps return veterans back to the 
workforce by employing a five-track model of one, reemployment; 
two, rapid access to employment; three, self-employment; four, 
employment through long-term services or through long-term 
service; and, five, independent living for veterans unable to 
return to work.
    Servicemembers returning from war are coming home with 
traumatic brain injuries, posttraumatic stress disorder, and 
many serious physical injuries. The VR&E program is uniquely 
positioned to assist our veterans in reintegrating them back 
into their communities and finding meaningful employment.
    With the major draw down of our Armed Forces, we need to 
understand the impact of the growing wave of returning veterans 
and to know if VR&E is properly staffed to meet the challenges 
in 2014 and beyond.
    I look forward to hearing the new VR&E director's goals for 
the program as well as the program's financial needs. I also 
look forward to hearing the GAO's detailed review of the 
program and their recommendations on how we can improve the 
program.
    Nothing is more important than ensuring that our 
transitioning servicemembers have access to the services like 
VR&E that they need to succeed in civilian life.
    Thank you, Mr. Chairman, for scheduling this hearing today 
and I yield back.
    Mr. Flores. I thank the ranking member.
    I now invite our first panel to the table. With us today is 
Mr. Daniel Bertoni with the U.S. Government Accountability 
Office; Ms. Heather Ansley with VetsFirst; and Mr. Paul Varela 
with DAV.
    Your complete written statements will be made part of the 
hearing record and each of you will be recognized for five 
minutes for your oral statement.
    Just as a reminder, you have to push the button in order to 
be heard over the PA system, and also the green light means 
that you are good to go. The yellow light means you have a 
minute left and the red light means that you need to wrap up 
soon.
    So let's begin with Mr. Bertoni. You are now recognized for 
five minutes.

                  STATEMENT OF DANIEL BERTONI

    Mr. Bertoni. Chairman Flores, Ranking Member Takano, 
Members of the subcommittee, good morning.
    I am pleased to discuss our work on the Department of 
Veterans Affairs' Vocational Rehabilitation and Employment 
program which provided education, training, and job placement 
services to over 120,000 veterans last year.
    My remarks today are based on our January 2014 report which 
examined outcomes for veterans seeking employment through the 
VR&E program and progress VA has made in addressing critical 
management issues.
    In summary, we found that of almost 17,000 veterans who 
entered the program in fiscal year 2003 and received 
employment-related services, just under half obtained suitable 
employment by the end of fiscal year 2012. Another 30 percent 
discontinued the program, 20 percent were still receiving 
services.
    While the average time to obtain employment was about four 
and a half years, time frames varied. For example, almost half 
of all veterans completed the program within three to six 
years, but nearly one-fourth achieved suitable employment in 
years seven through ten.
    One reason for the lengthy time frames is that a good 
number of participants discontinued or interrupted their 
programs along the way, sometimes more than once before 
achieving success.
    Veterans face several common challenges to completing the 
program and obtaining employment. We found that veterans with 
mental health conditions and those who worked with multiple 
staff over time took considerably longer to complete their 
programs.
    VA staff and veterans we interviewed also cited family 
obligations, financial difficulties, and civilian employers' 
limited understanding of military work experience as barriers 
to rehabilitation.
    With regard to VA's progress in addressing critical 
management issues, we identified several key weaknesses. First, 
VA has identified limitations with its primary measure of 
program success, the rehabilitation rate, and is considering an 
alternative measure.
    However, its proposed measure for individual staff reflects 
only the number and not the rate of successful outcomes and 
does not reflect the extent to which veterans are discontinued 
from the program without rehabilitation. Thus, it does not 
provide sufficient context for understanding overall program 
performance both regionally or nationally.
    Going forward, we have recommended that VA consider 
additional measures to provide a fuller picture of program 
success.
    VA also lacks performance measures related to enhancing 
veterans' long-term employment outcomes and currently considers 
a job placement to be successful if employment is maintained 
for only 60 days.
    Research and practices at other federal employment programs 
suggest that VA's measure may be insufficient to gauge long-
term employment success and VA may miss an opportunity to hold 
staff accountable and make program adjustments to achieve such 
outcomes.
    With regard to workload management, VA's formula for 
allocating staff among regional office's may also be 
contributing to some ongoing workload challenges. We found that 
the ratio of cases to staff varied widely among offices with 
some averaging fewer than 100 cases per staff and others 
averaging several hundred.
    Currently the VA staff allocation formula does not take 
into account workloads such as educational and vocational 
counseling which are substantial in some locations, and 
regional managers in five of the eight offices we contacted 
raised concern that the formula which has not been revised 
since 2003 may not effectively assign staff where they are most 
needed.
    VA also lacks information about the regional offices' 
varied approaches to managing their caseloads. For example, 
some offices have veterans work with a single staff person 
throughout the rehab process and others may have veterans work 
with multiple staff who specialize in specific phases for types 
of cases.
    Unfortunately, VA has not assessed the relative advantages 
or disadvantages of these varied approaches which is concerning 
given our finding that veterans who work with more staff over 
time are less likely to achieve suitable employment.
    And, finally, we identified some gaps in SSA's training 
despite ongoing improvement initiatives. In particular, we 
found that VA does not provide sufficient training on helping 
veterans with job placement and workplace accommodations which 
are key to a modern approach to ensuring veterans with 
disabilities secure and maintain employment.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions that you or other Members of the 
subcommittee may have. Thank you.

    [The prepared statement of Daniel Bertoni appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Bertoni.
    Ms. Ansley.

                  STATEMENT OF HEATHER ANSLEY

    Ms. Ansley. Thank you.
    Chairman Flores, Ranking Member Takano, and distinguished 
Members of the subcommittee, thank you for inviting VetsFirst 
to share our views on the effectiveness of the Department of 
Veterans Affairs' Vocational Rehabilitation and Employment or 
VR&E program.
    Access to quality vocational rehabilitation services is 
critical to helping veterans with disabilities receive the 
skills and training necessary to help them reintegrate into the 
workforce.
    The opportunity to participate in the workforce is critical 
not only because of the financial benefits from employment but 
also because of the intrinsic value of work. Without the 
opportunity to continue participating in the workforce, many 
veterans with disabilities may become disconnected from the 
very society they pledged to preserve and protect.
    Data from the U.S. Bureau of Labor Statistics shows that 
many veterans with VA disability ratings of 60 percent or 
higher are not participating in the workforce. VetsFirst is 
concerned about veterans with disability who like other people 
with disabilities face barriers to employment that include 
misinformation about disability and misperceptions about 
required accommodations.
    Even if they know about the Americans With Disabilities Act 
or the ADA, many disabled veterans are unsure about disclosing 
a disability to an employer and fear job-related discrimination 
due to a disability.
    VA's VR&E services are critical to helping servicemembers 
and veterans with service-connected disabilities who need 
assistance in developing and achieving a new path to 
employment.
    According to the Veterans Benefits Administration's fiscal 
year 2012 annual report, 121,236 veterans received VR&E 
services during fiscal year 2012. Approximately 79 percent of 
these veterans served during the Gulf War era. VR&E considered 
9,949 veterans in fiscal year 2012 to have successfully 
completed their rehabilitation program.
    The GAO's recent report on VA's VR&E program laid out many 
challenges that hinder veterans in completing their VR&E 
services. As was said already, these challenges include the 
veteran's disability, the need for a realistic employment plan, 
family obligations, and issues related to military transition.
    The presence of an employment barrier due to a disability 
is one critical factor that makes veterans who are seeking VR&E 
services unique from other veterans returning to the workforce. 
VetsFirst is concerned about VR&E's success in helping veterans 
with disabilities make a successful return to the workforce.
    According to GAO, veterans, especially those with mental 
health issues, are facing challenges as they go through the 
rehab process. These challenges were illustrated by the GAO's 
finding that veterans with mental health conditions experience 
a decreased likelihood of obtaining a successful outcome within 
eight years of entering VR&E than those with other 
disabilities.
    To address the needs of these and other veterans, we are 
pleased that VR&E is adding courses on mental health awareness 
and techniques to their training regimen for all vocational 
rehabilitation counselors.
    VA must also ensure, however, that employees are properly 
trained on other issues that hinder the return to work of 
veterans with particularly significant disabilities.
    We believe that these disabled veterans need more 
information about how to approach the workplace as a person 
living with a disability including understanding workplace 
accommodations.
    To help veterans address some of their fears about 
approaching the workplace as a person with a disability, a 
research study conducted by the Northeast ADA Center in 
conjunction with the Army's Wounded Warrior program concluded 
in part that information about the ADA, including disclosure 
decisions and accommodation practices, should be included in a 
veteran's vocational rehabilitation.
    In its report, GAO noted the need for additional training 
on accommodations for vocational rehabilitation counselors and 
we urge VA to develop and implement as soon as possible 
training on workplace accommodations.
    We also encourage VA to partner with the Job Accommodation 
Network which is a service of the Department of Labor to 
facilitate training on these issues and to connect veterans for 
future accommodation needs that they may have.
    Once placed in employment, some veterans need more supports 
to ensure their long-term success. VR&E considers a veteran to 
be rehabilitated if he or she maintains employment for at least 
60 days. Although some veterans' cases may be followed for 
longer than 60 days, we believe that more must be done to 
ensure the long-term success of veterans with disabilities in 
the workforce, not only in placement but in retention and in 
promotion.
    Thus, we believe VR&E should consider developing more 
partnerships with nonprofit organizations that provide the 
intense long-term services needed to assist veterans living 
with significant disabilities, including mental health 
conditions, in returning to and remaining in the workforce.
    Lastly, we support efforts to ensure that VR&E receives 
increased supports which include additional staffing resources 
and access to information technology to help them better meet 
the needs of veterans.
    For example, recent staffing increases have helped decrease 
the VR&E counselor caseloads, but more must be done. Additional 
gains will only come from more investment in VR&E and its 
services.
    Again, thank you for the opportunity to share our views 
this morning. This concludes my testimony and I would be 
pleased to answer any questions.

    [The prepared statement of Heather Ansley appears in the 
Appendix]

    Mr. Flores. Thank you, Ms. Ansley.
    And, Mr. Varela.

                    STATEMENT OF PAUL VARELA

    Mr. Varela. Good morning, Chairman Flores, Ranking Member 
Takano, and Members of the subcommittee. Thank you for inviting 
DAV to testify at today's hearing to examine ways to maximize 
the effectiveness of the Vocational Rehabilitation and 
Employment voc rehab program.
    We appreciate the subcommittee's continued interest in 
oversight essential towards maintaining and enhancing this 
vital program. The committee's work ensures that our Nation 
continues to fulfill its promises to the men and women who 
served. It is indeed a pleasure to offer our organization's 
insights into the vocational rehabilitation program.
    For over ten years, I had the distinct honor to serve as a 
DAV national service officer in New York and Los Angeles and 
witnessed firsthand the transformative effect of this program.
    My oral remarks will summarize four key points from my 
written testimony.
    First, DAV feels and the recent GAO report confirms the 
current voc rehab counselor to client ratio is too high and 
disproportionate throughout VR&E. As we have recommended, VR&E 
should maintain a voc rehab counselor to client ratio of no 
more than one to 125.
    We were concerned to learn that eight offices average a 
ratio of one to 175 and in the Cleveland regional office, they 
average one to 206. Voc rehab counselors have a very hands-on 
approach with their participants and require the time and 
ability to address the unique needs and concerns of program 
participants more effectively.
    The GAO report also confirmed what we had known before the 
findings of the report were published that demand for VR&E 
services is increasing and has done so steadily since 2008. 
There were 95,000 program participants in 2008 and as of March 
2013, roughly 130,000.
    Other factors must also be considered when increasing voc 
rehab counselor staffing levels to meet the one to 125 ratio to 
include increasing their administrative and support staffs to 
keep pace with increased VR&E participation. This includes 
purchases, beneficiary payments, and infrastructure.
    Therefore, VA must request and Congress must approve 
sufficient resources to meet all the needs of the VR&E program.
    Second, voc rehab is truly one of the more transformative 
benefits available to wounded, injured, and ill veterans, and 
enables them to overcome their service-connected disabilities. 
The program provides essential tools and resources needed to 
give them a sense of fulfillment as contributory members to 
their families and communities.
    With such a powerful benefit, why limit the time frame in 
which a veteran can choose to use this benefit? In most cases, 
VR&E benefits expire 12 years from the date of eligibility. 
This is what is commonly known as the use it or lose it period. 
We urge Congress to enact legislation that eliminates the 12-
year limit to use this benefit.
    Third, much of the VR&E process is still paper based unlike 
compensation and pension. Veterans still lack the ability to 
file their voc rehab applications online as a paper application 
is still required. As VBA moves forward with their electronic 
processing, this will lead to confusion as to which method is 
required to make certain applications for benefits.
    Better IT systems also have the potential to increase 
overall efficiency, provide better accountability of the entire 
voc rehab program, could facilitate and enhance tracking 
capabilities of all services and procurements, provide ready 
access to data and include features that would allow for better 
voc rehab counselor performance tracking.
    At present, much of the information required to get a full 
accountability of the program has to be done by examining local 
VR&E folders and assembling data. It is vitally important that 
VBA request and Congress approve the resources needed to make 
these much needed IT enhancements to improve access, oversight, 
and accountability throughout the entirety of the VR&E program.
    Fourth, an often overlooked portion of the voc rehab 
program, independent living also requires proper resourcing. We 
reiterate our recommendations regarding this benefit as 
highlighted in our hearing in November 2013. We urge Congress 
to support legislation to remove the cap and eliminate the 
current restriction placed upon program participation.
    Mr. Chairman, vocational rehabilitation embodies DAV's 
central purpose of empowering veterans to lead high-quality 
lives with respect and dignity. If we do not strengthen VR&E, 
it runs the risk of compromising that purpose. How can a 
wounded, injured, or ill veteran achieve such a fulfilling life 
when it takes months to even begin the program and is then 
adversely affected by staffing and resource limitations 
essential towards effective participation?
    In closing, Mr. Chairman, despite some of the management 
and oversight challenges discussed in our testimony and the GAO 
report, we continue to believe that voc rehab is a vital and 
transformative benefit, essential and empowering, that has and 
should continue to make a tremendous difference in the lives of 
thousands of veterans every year.
    DAV stands ready to work with the subcommittee and VA to 
offer our expertise, insight, and experience to enhance the 
program.
    Mr. Chairman, this concludes my testimony and stand ready 
to answer any questions the committee may have.

    [The prepared statement of Paul Varela appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Varela.
    And I thank the panel for their testimony.
    I now recognize myself for five minutes for questions.
    Mr. Bertoni, in your report, you mention that each regional 
office differs in how they monitor and how they distribute the 
caseloads to VR&E counselors.
    What are your suggestions as to how the VA can improve 
management to ensure that there is consistency and appropriate 
workload management at all the VR&E locations which would help 
ensure better service to veterans?
    Mr. Bertoni. A couple things, but it is no surprise that 
the field offices have a lot of discretion to configure their 
staff and manage their caseload that cuts across many different 
lines of work in the regional offices.
    But in this case, we did see a lot of variation in terms of 
how they were organizing these modules to process cases. We 
have specialization versus generalization. There were clearly, 
you know, indications that there were advantages and 
disadvantages of each.
    But it was concerning to us and in our analysis, we found 
that those who work with multiple counselors tend to have a 
lower success rate. You know, if you had four counselors, you 
were 27 percent less likely to be successful in your rehab.
    So it just begs additional analysis. We have recommended 
that VA study some of these workload models, identify the 
advantages and disadvantages, and come up with some specific 
guidelines or best practices that they can share with the 
regions so they can apply those to their own operations to be 
more effective.
    Mr. Flores. Uh-huh.
    Mr. Bertoni. The resource allocation model needs to be 
looked at. We have got staffing based on performance that can 
disadvantage lower performing offices. We have got workloads 
that are fairly substantial in some offices that are excluded, 
that are not giving proper credit.
    And that leads to FTE ceilings. And if you do not have the 
proper FTE ceilings regardless of the workload mix, you are 
going to have deterioration in service.
    So those two areas looking at how they are configured and 
factor that into your staffing allocation model to ensure that 
the appropriate staff are on the ground is important. And we 
have got two recommendations that should get them there.
    Mr. Flores. Okay. I want to dig into the weeds a little bit 
on this. Mr. Varela, I would like to follow-up with you because 
you had a recommendation as to caseload management. I think you 
said one to 125 was your or DAV's recommendation.
    So, Mr. Bertoni, it seems to me like there is a difference 
in the degree of resources required for a rehab case versus an 
education case.
    Can you tell me, should there be different metrics for 
those, two, in terms of VA staff to caseload?
    Mr. Bertoni. VA is the expert here in terms of the----
    Mr. Flores. Okay.
    Mr. Bertoni [continuing]. Work credit measurement system. 
And I would say you are correct. If you looked at the work 
credit measurement system, different workloads receive 
different credit. I do not know if what they are getting for 
voc rehabilitation, developing a rehab plan is sufficient or 
not. I think it is something that the agency needs to look at 
to ensure that they are getting equitable or just credit for 
various workloads.
    Mr. Flores. Mr. Varela, do you have any comments, any 
thoughts about that?
    Mr. Varela. Yes, Mr. Chairman. In terms of the workload 
credit, obviously there is an incentive to get a veteran to the 
completion of the program.
    Mr. Flores. Sure.
    Mr. Varela. And that is where they are going to give most 
of the credit. So there may be a precedence now that is not 
allowing VR&E to get the credit that they deserve for 
everything that they do. There is a lot of client contact that 
takes place. There is a lot of needs that have to be addressed. 
Circumstances are continually changing. There may have to be 
some coordination between VHA services----
    Mr. Flores. Yeah.
    Mr. Varela [continuing]. And other outside entities. So all 
of that needs to be built in to determine how effective the 
program is. And if somebody does not complete the program, that 
may not be the fault of the voc rehab counselor themselves. And 
they would get dinged for that. You know, that would be a 
smudge on their record. But that does not mean that they did 
not work with that veteran for a year----
    Mr. Varela [continuing]. Two years or three years. And that 
credit should be recognized.
    Mr. Flores. I am going to try to get in one more question 
in my remaining few seconds. This is for all of the panel, but, 
Ms. Ansley, let's start with you.
    Can you tell us what your thoughts are for the C-WINRS 
Program? Try to keep it in about 20 seconds and tell me what 
you think the improvements should be, the IT system.
    Ms. Ansley. Thank you.
    We agree that we need better improvements that will help to 
track the metrics as people are moving through the system to 
know where people are at as they are tracking through and to be 
able to highlight some of these points as was mentioned by DAV 
as people step through the process, where are they at and are 
there ways to provide credit and to identify problems.
    So if people are noting that they are at a particular 
level, you are seeing a high level of problem, what can we do 
to go back and fix that.
    Mr. Flores. Okay. Mr. Varela, regarding C-WINRS, what are 
your thoughts about the system?
    Mr. Varela. I know there are recommendations to enhance C-
WINRS, but VA going forward, their major emphasis is VBMS.
    Mr. Flores. Right.
    Mr. Varela. Will C-WINRS be able to communicate with VBMS 
or will it continue to be a stand-alone platform? They 
obviously need to make those IT enhancements. Can C-WINRS be 
enhanced to the point where it gives us all the data that we 
are looking for? I do not have the answer to that question. 
That is really going to require some examination.
    Mr. Flores. Well, thank you.
    Mr. Ranking Member, I am sorry I went over my time, but I 
recognize you for five minutes.
    Mr. Takano. Well, just consider this sort of my little 
birthday gift. I understand Tuesday was your birthday and happy 
birthday belatedly.
    Well, Mr. Chairman, thank you for recognizing me.
    My first question goes to Mr. Varela and Ms. Ansley. How 
should the VA measure success or failure of the VR&E program? 
Do we have the right measures and the measures that would 
incentivize the right sort of actions?
    Ms. Ansley. I do think that we need to make sure that we 
are not just looking at a particular time in point which was 
mentioned about you are now rehabilitated. I think that it is a 
process that veterans are going to go through.
    So looking at the process as they are going through the 
stages to look for metrics there, but then also once you are 
considered rehabilitated, you have remained in employment, I 
would like to see some follow-up about what happens in out 
years.
    Does the veteran--are they able to remain in the workforce? 
Are there things that develop as they move through their work 
career? It is really more about--the ultimate outcome and 
metric for me is a veteran remaining an active, productive 
member of the workforce and then how you measure that really 
requires more of a longitudinal process.
    Mr. Takano. Great. Thank you.
    Mr. Varela. Any metrics implemented going forward has to 
have the input of the participant. The veteran has to have the 
opportunity to say whether this is working or whether it is not 
working.
    And in our written testimony, we alluded to the new GI Bill 
complaint procedures that they have in place if you are having 
issues with a school or so on. You can go online and you can 
log these complaints.
    Veterans need to be part of that process. And there was a 
2004 task force that reviewed the VR&E program and that was one 
of the recommendations from that time was you need that 
individual's input to determine if you are on the right course, 
what changes need to be made, and if that veteran feels that 
they are getting the services that they actually sought.
    Mr. Takano. Ms. Ansley, I want to return back to your 
suggestion that we look at the process. Can you give me some 
idea of what additional measures you would do so we do not just 
look at a simple outcome?
    Ms. Ansley. Well, we certainly do need to when we are 
checking the process connect with that veteran and see if they 
got what they needed to actually return to the workforce.
    And so being able, I think, to do surveys and outcomes of 
the veteran, what he or she was looking for in the process, did 
they remain employed, if so, were the VR&E services helpful to 
them, I think, are some key measures that we need to be 
connected with.
    It is always difficult to look at, you know, metrics that 
come out from a program as you are going through the steps and 
then how did that really implement in someone's life as they 
are now taking that process and moving forward?
    I would also suggest that there may be other programs that 
could be looked at within VR&E and vocational rehabilitation, 
you know, other systems that exist that might provide some 
guidance on standards.
    Mr. Takano. Great. Thank you.
    Mr. Varela, can you explain in more detail why it is so 
important to lift or at least extend the eligibility period for 
VR&E?
    Mr. Varela. Yes, Congressman. A veteran's situation is 
likely going to change over time. What was true today may not 
be true 12 years from now. And a veteran's service-connected 
disability is going to play a big part in that.
    The conditions may change, get worse. There may be new 
disabilities that are identified. And so this veteran that had 
the time frame--may not have had the time to use it during that 
12-year period. They may not have needed it during that 12-year 
period.
    Now fast forward 13, 14 years when their circumstances have 
changed and they come to Vocational Rehabilitation and 
Employment and say I would like to utilize this program. If 
they had not met that 12-year requirement, they could be 
denied.
    Now, there are ways around that, but that requires 
additional administrative review. They have to determine if a 
serious employment handicap exists. It should be open-ended. 
And when the need arises, they should be able to use it.
    Mr. Takano. Thank you.
    Mr. Chairman, I stopped right on the clock.
    Mr. Flores. Okay. You are very good. Thank you.
    By the way, I just want to comment on the extension of the 
time period. As you know, your bill was incorporated with H.R. 
357, which passed a couple of weeks ago, which extended the 
time period from 12 years to 17 years.
    So the ranking member has been a champion of this and we 
have had some progress in the House. And hopefully our friends 
on the north side of the campus will take that up soon.
    Ms. Brownley, you are recognized for five minutes for 
questions.
    Ms. Brownley. Thank you, Mr. Chair. Appreciate it.
    I had a question, I think, directed to Mr. Varela and 
perhaps Ms. Ansley as well.
    I want to thank all of you first for your continued work 
and service on behalf of our Nation's veterans.
    In the testimony of the Paralyzed Veterans of America and 
their written testimony, they expressed some concern about the 
independent living program and it certainly has come up in my 
district in California in Ventura County.
    They state in their testimony that although the program has 
proven to benefit disabled veterans during their 
rehabilitation, existing legislation continues to limit or cap 
the yearly enrollment. More than a decade of combat has 
produced many veterans that could benefit from assistance from 
the independent living option. Congress should remove the cap 
of 2,700 per year for independent living enrollment and 
vocational rehabilitation. Counselors should be trained and 
encouraged to recommend the IL program when it could benefit a 
veteran's rehabilitation.
    So that is what they stated in their testimony. Certainly 
in my district, we have veterans that are calling our office 
pretty routinely who have been unable to attain services within 
the independent living program because of the cap and even 
probably more importantly in the 12-year statutory limit on 
veterans for attaining VR&E benefits.
    So I was just wondering if either one of you could comment 
on where you stand on that and do you believe the 12-year limit 
is a problem. Do you believe the cap on enrollees for 
independent living, the independent living program is a 
challenge?
    Ms. Ansley. We would certainly align ourselves with our 
friends from PVA in their comments on the independent living 
program. It is a program designed to assist those veterans that 
are in the most need of benefits and it seems to us as though 
if someone is meeting that need, why would we limit it based on 
an arbitrary cap, that, you know, these are the veterans that 
are most in need of service. And if you meet that need, that 
service should be there.
    So we would support the independent living program being 
available as needed to veterans and also the 12-year delimiting 
period we would say, you know, again, if the services are 
needed, a veteran's circumstances may change, you know, we 
would not want to limit access to something that is going to 
help someone rehabilitate, return to the workforce, and be a 
productive member of their community.
    Mr. Varela. Congresswoman, there are two parts to that, so 
I will take the 12-year period first.
    Obviously we would like to see the cap removed. I think 
this also would free up some VR&E resources as well. For those 
veterans that come in after the 12-year period and then have to 
prove to a voc rehab counselor that they have a serious 
employment handicap, that is one less administrative procedure 
that they would have to undertake.
    Again, the 12-year period, these disabilities are not going 
to last for just 12 years. You know, these are disabilities 
that are going to be ongoing for the rest of their lives. So 
why limit access to that benefit for 12 years? Their 
disabilities do not have a 12-year shelf life nor should the 
benefit.
    The independent living program, again, there should not be 
an arbitrary cap. It should be open to all veterans that need 
it. It is one of the more intricate tracks in the voc rehab 
program. As I mentioned in my oral remarks that VR&E services 
require a hands-on approach with their participants. It is even 
more so with those in the independent living program.
    So that would be more time consuming as well. So you may 
want to look at whether VR&E stations require independent 
living specialists if we remove that cap more people enter the 
program.
    I would also like to commend this committee and the VA for 
your oversight and the VA VR&E program because they have just 
instituted, I think it is a 14-hour training program on 
independent living services. So there are VR&E counselors who 
will have what looks like an in-depth training on the 
independent living program.
    Ms. Brownley. Thank you.
    My time is about to run out, but I just am wondering if 
either one of you have any data at all with regards to this in 
terms of veterans who need this program and are not able to 
have access to it. Just yes or no and if you do, I can follow-
up with you later.
    Mr. Varela. No, we do not have that data on hand at 
present.
    Ms. Ansley. No, we do not have that data.
    Ms. Brownley. Thank you.
    And I will yield back.
    Mr. Bertoni. We just issued a report a couple months back 
on sort of the numbers around the program, so we can get you 
that.
    Ms. Brownley. That would be great. Thank you.
    Mr. Flores. I want to thank the first panel for their 
testimony and I appreciate your efforts on behalf of our 
Nation's veterans. You are now excused.
    I now invite our second and final panel for the day to come 
to the witness table. On our second panel, we have Mr. Jack 
Kammerer, who is the new director of Vocational Rehabilitation 
and Employment Service at VA.
    Before he came to the VA, Mr. Kammerer had a long and 
distinguished career in the U.S. Army and I was pleased to 
learn yesterday that he served with my friend from Texas, Mr. 
Guerin.
    Thank you for your service to our country, Mr. Kammerer, 
and you are welcome to the subcommittee. You are now recognized 
for five minutes for your testimony. I realize I called you up 
here in a hurry, so take your time to get ready.

                   STATEMENT OF JACK KAMMERER

    Mr. Kammerer. Mr. Chairman, Mr. Takano, subcommittee 
Members, I appreciate the opportunity to discuss the Department 
of Veterans Affairs' Vocational Rehabilitation and Employment 
program.
    In my brief tenure as VRE director, I have already seen how 
the VRE team is engaged in multiple initiatives which will 
result in better support for veterans.
    Through VetSuccess on Campus, we have collaborated with 94 
schools across the country to provide additional education and 
vocational counseling and other services to over 80,000 veteran 
students.
    We also collaborate with the Department of Defense to 
provide assistance to servicemembers through the Integrated 
Disability Evaluation System and we have expanded counseling 
and other services for over 28,000 transitioning 
servicemembers.
    We continue to work with federal, state, and local 
government agencies and private sector employers to increase 
veteran employment opportunities. VRE Service is currently 
developing new performance metrics to more effectively evaluate 
the full scope of VRE work activities at the local, regional, 
and national levels. VRE is also partnering with the Veterans 
Health Administration to develop video tele-counseling.
    The VRE program assists servicemembers and veterans with 
service-connected disabilities to prepare for, find, and keep 
suitable employment. For veterans with service-connected 
disabilities so severe they are unable to work, the independent 
living program or IL offers services to improve their ability 
to live independently.
    The VRE program also provides education and career 
counseling to transitioning servicemembers and veterans 
eligible for VA educational benefits and dependents of veterans 
who have permanent and total service-connected disabilities as 
authorized under Title 38, Chapter 36.
    VRE has nearly a thousand professional vocational 
rehabilitation counselors and delivers service through a 
network of 420 office locations. Our service delivery model 
supports veterans where they are located with operations at 56 
regional offices, 198 out-based offices, 71 IDES installations, 
and 94 VSOC sites.
    In fiscal year 2013, VRE successfully rehabilitated over 
10,000 veterans with service-connected disabilities with over 
8,500 of those rehabilitated to suitable employment and the 
balance veterans whose rehabilitation gave them greater 
independence through IL services.
    VRE had a 14 percent increase in applicants in fiscal year 
2013. We are completing data validation for fiscal year 2013 
and we believe we have supported over 130,000 veterans with 
Chapter 31 services.
    The Corporate WINRS system is the VRE case management 
application. C-WINRS records the application and adjudication 
of VRE claims, rehabilitation planning services, and 
disposition of cases.
    The current C-WINRS enhancements focus on developing a 
subsistence allowance module to eliminate VRE's reliance on the 
legacy BDN system and move to payment through the corporate 
financial accounting system (FAS). The new FAS corporate module 
is being beta tested in eight regional offices. We are 
finalizing development for national deployment.
    VRE has also built requirements for a new case management 
system that will expand in the functionality of the VBMS 
system.
    GAO made six recommendations in its January 2014 report on 
VR&E. The first recommendation suggested revisions of national 
and regional performance measures for the VRE program. We are 
currently engaged in redesigning local, regional, and national 
performance measures to include a range of broader spectrum 
performance data to more effectively evaluate program success.
    The second recommendation from GAO was to develop new 
measures of long-term employment to go beyond the minimum 60 
days of post placement monitoring. VRE provides comprehensive 
counseling, training, and rehabilitative services to remove 
employment barriers that challenge veterans in obtaining and 
maintaining suitable employment. VRE works with participants 
over a multi-year period with training and education and up to 
18 months of employment services. VRE counselors use judgment 
in determining when veterans have adequately adjusted to their 
employment and in certain circumstances will follow veterans 
beyond the 60 days.
    VRE is exploring different ways to follow-up with employed 
veterans after their formal departure from VR&E. A post outcome 
case management tool is now in development.
    GAO's third recommendation was to conduct non-response 
analysis of the results of VA's ongoing Voice of the Veteran 
surveys. While VA's current Voice of the Veteran program does 
not include non-response bias analysis, the survey findings are 
statistically valid. Contingent on resource availability, VBA 
will modify the survey contract to include non-response 
analysis of the results.
    GAO's fourth recommendation focuses on VA's allocation of 
VRE staff among the regional offices. VR&E Service works 
closely with VBA's Office of Field Operations in determining 
resource allocations. VRE Service is designing a staffing model 
to account for regional factors and with the Office of Field 
Operations will revisit the metrics used in the resource 
allocation model.
    The fifth recommendation from GAO was to collect 
information on the regional offices' approaches for managing 
the VRE workloads, assess the advantages and disadvantages, and 
use the results of this assessment to provide guidance to the 
offices on best practices.
    VRE Service allows managers to decide how best to manage 
their workloads but agrees that there is merit in analyzing 
data and communicating best practice.
    The final recommendation was to provide additional 
training. The VRE Service has provided multiple training 
activities and curriculums on job placement and job 
accommodations and we will continue to develop and deploy 
additional training products.
    Mr. Chairman, VRE Service will continue to assess and 
improve vocational rehabilitation services to servicemembers 
and veterans who have incurred a service-connected disability 
and we will continue to focus on enhancing both our service 
delivery and the actual services we provide.
    This concludes my statement and I would be pleased to 
answer the questions from the subcommittee.

    [The prepared statement of Jack Kammerer appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Kammerer. I appreciate your 
testimony, and I guess you have been drinking from a fire hose 
the last few weeks as you get your arms around this.
    I know that you agree with me and I think you indicated 
this in your testimony that there is a need to improve the C-
WINRS program or to create some other IT tool to better track 
the cost of participants.
    You mentioned in your testimony that VR&E has built a set 
of requirements for a new case management system that will 
expand the functionality of the veterans benefits management 
system or the VBMS as it is more commonly called to better 
support the VR&E program.
    Based on what you have learned so far, when do you expect 
that these requirements will be funded and once they are 
funded, how long will it take for the final product to be 
delivered and implemented?
    Mr. Kammerer. Thank you for your question, Mr. Chairman.
    As I mentioned in my written statement and my oral 
statement, currently we have completed the development of 
business requirements for the next generation of a case 
management system.
    At the same time, Mr. Chairman, we are improving the 
functionality of our current C-WINRS system to include a focus 
on the back end, the business side of it. And as I mentioned, 
we are piloting the subsistence allowance module.
    The budget works in cycles. As you know, previous to the 
release of the President's budget and the upcoming oversight 
committee hearings, I could not give you any specifics on 
funding specifically, but I look forward to keeping the 
committee informed on the progress of our new system.
    We are currently validating the requirements that we 
developed for the new system with our other business lines 
within VBA and VA and we will certainly keep you informed of 
progress.
    Mr. Flores. Okay. That would be good.
    The President's budget will be delivered on Monday, the 
4th, I believe. So I am hoping you will follow-up with us and 
let us know what the ranking is of these C-WINRS program and 
the VR&E IT resources following the release of that budget.
    Mr. Kammerer. Yes, sir.
    Mr. Flores. I am sorry. Go ahead. Okay.
    The GAO report and the VSOs that were testifying here today 
have shown that they are concerned about the tracking, the 60-
day tracking system that the VA currently has in place to track 
successful rehabilitation.
    According to the GAO's report, the VA commented that it 
found little to be gained from directing limited resources to 
implementing and executing additional post placement measures.
    You know, the ultimate goal, you and I both share this, the 
ultimate goal of VR&E is the long-term employment and 
rehabilitation of our veterans.
    And so I was going to ask you why does the VA find it 
important to not extend that 60-day mark to truly support these 
veterans over the longer term.
    We did also do a check a bit ago to make sure that these 
limits were not built in the statutes or not. So the VA has the 
flexibility to change this if it elected to do so.
    Mr. Kammerer. Yes, sir. Mr. Chairman, I understand your 
question. It is an important question.
    As GAO mentioned in their report on our programs, Mr. 
Chairman, we are seeing veterans in our programs for an 
extended period of time. As you know, veterans have the 48-
month training period for training and education as we in many 
cases train and educate them for future employment. And then we 
have the 18 months of employment services.
    And as you mentioned, sir, the 60-day period is to 
stabilize a particular veteran in employment and then once that 
stabilization is complete, then we would in a dialogue with the 
veteran say that employment and rehabilitation is complete.
    The challenge, Mr. Chairman, with that six-year or extended 
period of time is, I think we are sensitive to further 
extending the period of time and the formal relationship 
between the counselor and the veteran.
    As I mentioned in my oral and written statement, we are 
looking at a post outcome case management tool to try to be 
able to measure beyond that 60-day period. And I look forward 
to looking at other ways to measure that as well. As. you know, 
Mr. Chairman, the congressionally directed long-term study is 
measuring three cohorts over a 20-year period. So we look 
forward to benefitting from that as well.
    Mr. Flores. Okay. Again, I realize you are new at the job, 
but if I were in your shoes, I would consider trying to extend 
that a little bit. And it could be something as simple as 120 
days out, 180 days out, a phone call to the veteran saying how 
are you doing, you still employed, things like that. So, again, 
we are not talking about a giant resource sink here, I do not 
believe.
    One last question. Have the VA's voc rehab counselors 
participated in the VA all employee survey and, if so, what 
were the results of the survey?
    Mr. Kammerer. I do not know the answer to that question, 
Mr. Chairman. I would have to take that for the record and get 
back to you.
    Mr. Flores. Okay. That will be great.
    I now recognize the ranking member for his questions.
    Mr. Takano. Thank you, Mr. Chairman.
    And thank you, Mr. Kammerer, for your service to our 
country.
    Mr. Kammerer, can you tell me, are VR&E counselors trained 
on how to assist both the veterans with physical wounds and 
those with mental health issues or does the training treat 
these type of disabilities as the same, so----
    Mr. Kammerer. If I understood your question, Mr. Takano, it 
is our counselors, are they trained on both physical and mental 
health aspects of the veteran's rehabilitation?
    Mr. Takano. Right. Or do they have the capacity to do both?
    Mr. Kammerer. Yes, sir, that is a great question. Thank you 
for that question.
    As you know, Mr. Takano, Mr. Ranking Member, our vocational 
rehabilitation counselors have master's degrees in counseling 
and they have extensive training and in many cases extensive.
    I just visited a regional office. In fact, I met one of the 
counselors who had worked at the state level, had worked with a 
couple of our nonprofit partners and was now working with the 
VA.
    But to specifically answer your question, they are trained 
and able to assist veterans both with physical needs and on the 
mental health side. We certainly, in many and most cases defer 
to the mental health and the clinical experts. So in many 
cases, our counselors would make the appropriate referrals to 
assist those veterans with formal mental health services on the 
clinical side with VHA, or another agency. The Veterans Health 
Administration.
    We have recently developed some mental health training that 
we are working on for our VRE workforce, sir, to better assist 
them with identifying and doing the proper referrals on mental 
health.
    So, again, sir, we assist veterans with their 
rehabilitative needs and that is true on the physical side, 
too. I would say that we in many cases, as you know, make 
referrals to the proper physical rehabilitation means in many 
cases through VHA again.
    Mr. Takano. But I think I heard from the GAO representative 
before that part of the retention problem is the inability to 
address some of these mental health issues of the veterans in 
the program; is that correct?
    Mr. Kammerer. Absolutely. And it is a very critical aspect 
of a veteran's rehabilitation. I think the other thing I would 
say is, as I mentioned in my statements, in my written and my 
oral statements, sir, that we also have VetSuccess on campus 
counselors who are also vocational rehabilitation counselors.
    We have been partnering with VHA in their VITAL program 
which provides mental health assistance to veterans on campus 
in some cases based on their availability. So it is, as 
mentioned in the statements and in the GAO report, it is a 
critical aspect of the veteran's rehabilitation.
    I just want to be careful that I say that we make the 
proper referrals, but we certainly deal with and recognize and 
support the mental health aspects of a veteran's 
rehabilitation.
    Mr. Takano. Thank you.
    Is the VR&E program prepared for the influx of veterans 
that will result from the anticipated drawn down of our troops? 
What does the program need to ensure it is prepared to assist 
these transitioning servicemembers?
    Mr. Kammerer. As I mentioned in my statements, we do 
provide support to transitioning servicemembers. In some cases, 
as you know, they would become Chapter 31 clients. And if they 
are eligible and entitled, we would facilitate their assistance 
through the Chapter 31 services that we have spoken about.
    Also, we provide the Chapter 36 education and employment 
counseling which is very important for many servicemembers. So 
we are working on our outreach for the Chapter 36 counseling 
services to make sure that we reach the right veterans.
    And as I mentioned also, we have approximately 200 on 
military installations, Vocational rehabilitation counselors, 
helping in IDES and other tasks.
    Mr. Takano. But, I mean, do you have any projections as to 
if there is going to be any increase in the numbers of 
servicemembers needing the VR&E program because of the 
anticipated draw down and are you prepared----
    Mr. Kammerer. That is a great question, too, and I am sorry 
if I did not directly----
    Mr. Takano. That was my----
    Mr. Kammerer [continuing]. If I misunderstood your 
question. I think as the chairman mentioned in his opening 
statement, as we continue to see a reduction, as the backlog 
goes down and we continue to see adjudicated claims, we would 
expect to see an increase in applications for VRE services 
under Chapter 31 to include in some cases from transitioning 
servicemembers.
    My boss, Deputy Under Secretary Curt Coy, has given me 
three specific tasks as the new VRE director. He has told me to 
understand the current and the future population to include 
transitioning servicemembers. He has told me, as we heard in 
the GAO report, to make sure we get the right performance 
metrics. And, sir, he has told me to make sure that we get the 
right service delivery and service delivery models.
    So as part of your question about transitioning 
servicemembers, I am working very hard right now to understand 
the future population, as we have more adjudicated claims, make 
sure that we are prepared in the places we are and the places 
we need to be to support those transitioning servicemembers and 
veterans.
    Mr. Takano. All right. Thank you so much.
    Mr. Flores. Ms. Brownley, you are recognized for five 
minutes.
    Ms. Brownley. Thanks, Mr. Chair.
    Thank you, Mr. Kammerer.
    I wanted to continue sort of my line of questioning on the 
independent living program. And I am just wondering, because my 
veterans are having issues with it in my district, and I am 
just wondering if you have any data on, you know, how many 
veterans applied in 2013 for the program and has the VA ever 
considered lifting the cap and have you done any kind of cost 
analysis on, you know, what it would cost if we did eliminate 
the cap?
    Mr. Kammerer. Yes, ma'am. Thank you for your question.
    I would have to get back to you for the record on the exact 
number of veterans that were rehabilitated through independent 
living in 2013. I would say it is approximately two and a half 
percent of the workload. Total rehabilitations which as I 
mentioned in my statement was over 10,000. But I will get you 
the exact number for the record.
    I am not able to talk about pending legislation outside the 
views process. I know Ms. Devlin, the former acting director of 
the VRE program, as mentioned earlier, did testify extensively 
in November about the IL program. So I have no specific 
comments beyond Ms. Devlin's testimony about the cap because I 
know that was previously addressed.
    And if you need additional information, ma'am, I would be 
happy to get back to you on the record on that as well.
    Ms. Brownley. Well, that would be great. I would like to 
follow-up on that.
    And, I mean, just in your position with the VA, are you 
hearing about this particular program and----
    Mr. Kammerer. No. I am certainly happy to comment on that. 
I did not mean to not more specifically answer your question. I 
just did not want to provide specific----
    Ms. Brownley. Correct. I understand.
    Mr. Kammerer. [continuing]. Numbers without having those--
--
    Ms. Brownley. Thank you, sir. I appreciate that.
    Mr. Kammerer [continuing]. Right at my fingertips. I think 
generally speaking that we have been, as I understand, right 
below the cap for the past several years. And so we have not 
currently had an issue with the cap. I think several years ago, 
we were close and we did some outreach several years ago.
    So it certainly, as you mentioned, ma'am, and in my 
experience, in my brief experience in this position, it is a 
very critical aspect of what we do because if--and particularly 
with older veterans or veterans with very difficult challenges, 
physical and otherwise, while it is a very small population, 
most of those veterans, as you well know, to qualify for that 
program have to have a serious employment handicap and not be 
able to seek and maintain employment.
    So what we want to do for them is to restore their 
activities of daily living. So anywhere providing them work to 
help them with modifications to their home and visiting their 
home and helping them with their rehabilitation is very, very 
critical, as I mentioned, again, for a very small but important 
population of veterans. And hopefully some of them at some 
point would be able to return to employment opportunities.
    So I look forward to working with you and the subcommittee 
and GAO and others to make sure that we continue to strengthen 
that program.
    Ms. Brownley. Likewise. And I think for our vets in Ventura 
County in California, it is the 12-year statutory limitation 
that is the--it is the bigger issue because they are older vets 
and, you know, because of the 12-year limitation, they have 
exceeded and do not have access to the program for that. So 
that is another area that I would like us to look into.
    Mr. Kammerer. Yes, ma'am.
    Ms. Brownley. Thank you very much.
    I yield back.
    Mr. Flores. Thank you, Ms. Brownley.
    Mrs. Kirkpatrick, you are recognized for five minutes for 
questions.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    You have a challenging job and I appreciate the good work 
you are doing. I just want to talk a little bit about the jobs 
portion of that.
    I recently took a combined Armed Service Veterans' and 
Affairs Committee trip to some military bases overseas. And my 
role in that was talking with active-duty members who are going 
to transition out of the military very soon and how we can have 
a seamless transfer when they become veterans.
    And the two most frequent questions I got from service 
members was how am I going to find a job? What kind of job am I 
going to have? So I am interested in your Title 36 counseling 
that you start with active duty.
    At what point do you start reaching out to those members 
who are going to transfer out?
    Mr. Kammerer. Thank you, ma'am, for that question. And as 
you mentioned, it is a very important discussion. It is a very 
important question.
    I think the first answer I would provide is through the 
revised Transition Assistance Program, we do have content that 
describes our programs and services. And we are, as I mentioned 
in a response to Mr. Takano, we are working to be as aggressive 
as possible to reach out to transitioning servicemembers to 
provide them information on Chapter 36.
    If I could answer your specific concern about jobs as well, 
the one thing that is critical with the VRE programs and 
services is in many and most cases and as I was discussing with 
Ms. Brownley about the IL, in most of our veteran clients, we 
are interested in making sure that we achieve an employment 
outcome for them.
    If we help them participate in an educational or training 
program, at the end of the experience, we want to be able to 
help them gain and maintain the right employment for them based 
on their knowledge, their abilities, their military 
experiences. So that is absolutely critical.
    I would say I visited an RO recently and we have an 
employment coordinator in the VRE program, in the RO, and I 
discussed with him----
    Mrs. Kirkpatrick. And may I just interrupt because----
    Mr. Kammerer. Yes.
    Mrs. Kirkpatrick [continuing]. My time is running out? What 
I really want to know are they present on the military bases 
and do they make contact with active duty service members?
    Mr. Kammerer. I am sorry I did not----
    Mrs. Kirkpatrick [continuing]. Is there contact a year out 
or eight months out?
    Mr. Kammerer. And I should have more specifically addressed 
that. We do have the 200 IDES counselors that are physically on 
military installations and they are vocational rehab counselors 
that have the master's degree in counseling.
    And we do provide that content that I mentioned in the 
transition program. And we also have other contract and other 
counselors that support transitioning servicemembers that sign 
up for the Chapter 36 services. So we reach them when they are 
going through their transition. We make our content available 
through social media.
    Mrs. Kirkpatrick. So that could be just within the last 
week of their being in active duty, right? That is my concern.
    Mr. Kammerer. Oh, I understand your question. Yes.
    Mrs. Kirkpatrick. And, actually, if the contact does not 
happen until they start the transition process, that only 
leaves a week or so, right?
    Mr. Kammerer. I think the military services, ma'am, and the 
revised TAP program are working to reach servicemembers earlier 
in their transition.
    Mrs. Kirkpatrick. That would be my request based on my 
conversation with service members.
    Mr. Kammerer. And I would not want to speak for the DoD 
side.
    Mrs. Kirkpatrick. Right.
    Mr. Kammerer. But I know on the transition activities, the 
VA supports that we are connecting with servicemembers earlier 
either through e-benefits or in the TAP program. And I think 
your concern is are we reaching and providing information to 
servicemembers as early as possible.
    Mrs. Kirkpatrick. Right.
    Mr. Kammerer. And I will make sure that I continue to work 
towards that working with DoD and----
    Mrs. Kirkpatrick. Thank you.
    Mr. Kammerer [continuing]. Making sure that we do that.
    Mrs. Kirkpatrick. I think that is really important. Thank 
you very much.
    I yield back.
    Mr. Flores. Thank you, Ms. Kirkpatrick.
    And, Mr. Kammerer, I appreciate your testimony today. And, 
again, I appreciate your service to our country and to our 
veterans. You are now excused.
    I thank everyone for their attendance today and this frank 
discussion on how to improve this important program for our 
Nation's veterans.
    Finally, I ask unanimous consent that all Members have five 
legislative to revise and extend their remarks and to include 
any extraneous material in the record of today's hearing. 
Hearing no objection, so ordered.
    If there is nothing further, this hearing is adjourned. 
Thank you.
    [Whereupon, at 11:03 a.m., the subcommittee was adjourned.]
    
    
    
                                APPENDIX
                                
                                
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                                
              Prepared Statement of Jack Kammerer

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to appear before you today to discuss the Department of 
Veterans Affairs (VA) Vocational Rehabilitation and Employment (VR&E) 
program. As I near the end of the first 90 days as the Director of VR&E 
Service, I have already seen how VR&E staff in Washington DC, and VR&E 
staff in the field offices are committed to and engaged in multiple 
initiatives to extend our outreach capabilities, increase program 
efficiencies, and enhance our current technologies, all of which will 
result in better support for Veterans.
    Through our VetSuccess on Campus (VSOC) program, we have 
collaborated with 94 schools across the country to provide educational 
and vocational counseling and other on-site services to over 80,000 
Veteran students. Under the VSOC program, Veterans have the opportunity 
to succeed through coordinated delivery of on-campus benefits 
assistance and adjustment counseling to assist Veterans in completing 
their college education and entering the labor market in viable 
careers. We also collaborate with the Department of Defense to provide 
services to Active Duty, Reserve, and National Guard Servicemembers 
through the Integrated Disability Evaluation System (IDES). Through our 
involvement in the IDES program, we have expanded early intervention 
counseling and other available services for over 28,000 transitioning 
Servicemembers at 71 military installations.
    We also continue to work with Federal, state, and local government 
agencies, as well as private-sector employers, to increase Veteran 
employment utilizing special employer incentives, special hiring 
authorities, on-the-job training, and non-paid work experience for 
those Veterans in our program. VR&E Service is currently developing new 
program performance metrics that will more effectively evaluate the 
full scope of VR&E work activities at the local, regional, and national 
levels. VR&E Service is partnering with the Veterans Health 
Administration (VHA) to develop video telecounseling for nationwide 
implementation. VR&E intends to use the same, secure technology 
currently in use in VHA's telehealth initiative.
    My testimony today will provide an overview of the VR&E program, 
performance summary, discussion of VR&E's case-management information 
technology system, and information on actions taken to implement the 
Government Accountability Office's (GAO) recommendations for the VR&E 
program provided in its January 2014 report.

    VR&E Program Overview

    The Veterans Benefits Administration's (VBA) VR&E program assists 
Servicemembers and Veterans with service-connected disabilities to 
prepare for, find, and keep suitable employment. For Veterans with 
service-connected disabilities so severe that they cannot immediately 
consider employment, the independent living (IL) program offers 
services to improve their ability to live as independently as possible.
    The VR&E program also provides educational/career counseling to 
transitioning Servicemembers and Veterans that are eligible for VA 
educational benefits, and children, widows, and spouses of Veterans who 
have permanent and total service-connected disabilities, as authorized 
under Title 38, United States Code, Chapter 36. Additionally, VR&E 
provides vocational and rehabilitation benefits to children born with 
spina bifida for certain Veterans with service in Vietnam or Korea. 
VR&E employs nearly 1,000 professional vocational rehabilitation 
counselors and delivers services through a network of 420 office 
locations. Our service delivery model works to support Veterans where 
they are located, and includes operations at 56 regional offices, the 
National Capital Region Benefits Office, 198 VR&E out-based offices, 71 
IDES installations, and 94 VSOC schools/sites.

    VR&E Program Data

    In fiscal year (FY) 2013, VR&E successfully rehabilitated over 
10,000 Veterans with service-connected disabilities. Over 8,500 were 
rehabilitated into suitable employment, a 6.6 percent increase from FY 
2012. The remaining were Veterans with disabilities so severe that they 
could not currently pursue employment, but were rehabilitated after 
they were able to gain greater independence through the delivery of IL 
services. VR&E also had a 14.2 percent increase in applicants in FY 
2013, rising from over 72,000 to almost 83,000, demonstrating that our 
outreach efforts are reaching Servicemembers and Veterans in need of 
assistance.

    Information Technology

    Corporate WINRS (CWINRS) is the VR&E case-management software 
application (named after the stations that collaborated to develop the 
original version:
    Waco, Indianapolis, Newark, Roanoke, and Seattle). CWINRS is used 
to record the adjudication of VR&E claims, rehabilitation planning, 
provision of services, and the disposition of cases. CWINRS tracks a 
Veteran's rehabilitation progress through the VR&E program. This 
includes establishing the Veteran's entitlement to benefits, tracking 
appointments, and forwarding transactions to the financial management 
systems for vendor payments. CWINRS utilizes VBA's corporate database 
to maintain participant information, and interfaces with VBA's Benefits 
Delivery Network (BDN) and other financial systems to process payment 
and accounting transactions. Case-specific information for participants 
in all five rehabilitation tracks available through the VR&E program 
(re-employment, rapid access to employment, employment through long-
term services, self-employment, and independent living) is managed 
through the CWINRS application.
    Current CWINRS enhancements focus on developing a subsistence 
allowance module, which will eliminate VR&E's reliance on the legacy 
BDN system and move towards payment through the corporate Financial 
Accounting System (FAS). The new FAS corporate payment module is being 
beta tested in eight regional offices, and is currently successfully 
making subsistence payments to more than 350 Veteran participants in 
the VR&E program. VR&E Service is finalizing development of this module 
to enable national deployment.
    VR&E Service has also partnered with VHA to develop and pilot an 
online medical referral tracking system. This system promotes 
communication between VR&E and VHA and improves the coordination of 
services to Veterans. The new system was recently piloted at nine 
sites. We are analyzing data to help us develop a future deployment 
plan.
    VR&E has also built requirements for a new case-management system 
that will expand upon the functionality in the Veterans Benefits 
Management System to support the VR&E program, including our VSOC and 
IDES programs.

    Update on Implementation of GAO Recommendations

    GAO made six recommendations in its January 2014 report titled, 
``VA Vocational Rehabilitation and Employment: Further Performance and 
Workload Management Improvements are Needed.'' First, GAO recommended 
that ``any revised set of national and regional performance measures 
for the VR&E program include measures of (a) the proportion of program 
participants successfully rehabilitated into employment, and (b) the 
proportion of participants who obtain other benefits from VR&E 
services.'' As described earlier, VR&E is currently engaged in 
redesigning local, regional, and national performance measures that 
will include collection of a broader spectrum of performance data to 
more effectively evaluate program success. As a part of the redesign 
process, VR&E is investigating all viable options for capturing and 
reporting on not just positive program outcomes, but also on the 
outcomes of all program participants. Some measures may most 
appropriately be gathered at the national level, but all measures will 
be designed to align with each other and support effective oversight of 
the entire program.
    GAO's second recommendation was to ``develop new measures of long-
term employment that go beyond the minimum 60 days of post-placement 
monitoring that is currently required. In developing measures, consider 
the feasibility of using results from planned post-closure surveys of 
Veterans as a data source.'' VR&E provides comprehensive counseling, as 
well as training and rehabilitative services, to remove employment 
barriers that challenge a program participant's ability to both obtain 
and maintain suitable employment. Unlike many other vocational 
rehabilitation and training programs, VR&E has the opportunity to work 
with participants over a multi-year period, including providing 
training and education, and up to 18 months of employment services 
focused on ensuring employment readiness and outcomes. Additionally, 
VR&E counselors use professional judgment in determining when Veterans 
have adequately adjusted to their employment positions and, in certain 
circumstances, will follow Veterans beyond the 60-day minimum post-
employment period. Currently, VR&E is exploring different mechanisms 
and processes to follow up with employed Veterans after their formal 
departure from the VR&E program. A post-outcome case management tool is 
in development that will facilitate VR&E follow up with Veterans months 
after case closure to determine if additional services are needed to 
maintain employment or to sustain maximum independence in daily living. 
VR&E's ongoing Longitudinal Study is currently tracking three cohorts 
of Veterans (2010, 2012, 2014) over a 20-year period, and it will 
provide data to assess the long-term success of participation in the 
program and post-service outcomes.
    GAO's third recommendation was to ``conduct nonresponse analysis of 
the results of VA's ongoing Voice of the Veteran customer satisfaction 
surveys.'' While VA's current Voice of the Veteran Continuous 
Measurement Satisfaction Research Program does not currently include 
non-response bias analyses, the survey findings are statistically 
valid. However, contingent on resource availability, VBA will modify 
the survey contract to include non-response analyses of the results.
    Fourth, GAO recommended that VA, ``in revisiting VA's formula for 
allocating VR&E staff among the regional offices, (a) assess the 
inclusion of factors related to regional office performance and, if 
warranted, remove them from the formula, and (b) assess the exclusion 
of any factor related to the number of educational counseling cases in 
each regional office and, if warranted, add such a factor.'' VR&E 
Service works closely with VBA's Office of Field Operations in 
determining how resources are allocated. VR&E Service is designing the 
staffing model to account for regional factors impacting performance, 
and together with the Office of Field Operations, we will revisit the 
metrics used in the resource allocation model to ensure continued 
validity and data integrity.
    GAO's fifth recommendation was to ``collect information on the 
regional offices' approaches for managing their VR&E workloads, assess 
the advantages and disadvantages of these approaches, and use the 
results of this assessment to provide guidance to the offices on 
potential best practices or options to consider.'' VR&E Service allows 
local managers to decide how best to manage their workloads, but agrees 
that there is merit in collecting and analyzing data and communicating 
best practices on workload management.
    GAO's final recommendation was ``to provide additional training to 
all individual Vocational Rehabilitation Counselors (VRCs) on job 
placement strategies and workplace accommodations, potentially as part 
of the effort to develop a competency-based training approach.'' VR&E 
Service has provided multiple training activities and curriculums 
focused on job placement and job accommodations. VR&E conducted 
Employment Coordinator classroom training in 2012 and deployed Training 
and Performance Support System modules on Employment Services in June 
2013 and Self-Employment in July 2013. VR&E Service also provided field 
offices with training modules on posttraumatic stress disorder (PTSD), 
traumatic brain injury (TBI), and employment training on November 29, 
2013. The training includes information about job accommodations for 
Veterans with TBI and PTSD, and answers common questions regarding the 
Americans with Disabilities Act as it pertains to TBI and PTSD. 
Additionally, training on special employer incentives was released on 
January 29, 2014, and is accessible nationwide to all VR&E staff.
    VR&E's Electronic Performance Support System (EPSS) has a section 
that offers essential guidance to VR&E employees on employment and job 
accommodations. EPSS is a portal designed to assist local VRCs in 
performing the essential functions of their job, to include employment-
related duties. The employment section of EPSS offers assistance on 
procedures for identifying Veterans' job-accommodation needs, provides 
training to counselors to help them work with Veterans on their ability 
to overcome challenges in obtaining and maintaining employment, and 
provides VR&E employees appropriate intervention and monitoring 
strategies to help Veterans adjust to their new position and the 
workforce. These job aids are updated continuously based on feedback or 
changes in law, regulation, and VR&E Service policies.
    Efforts are currently underway to update and convert existing 
training materials into web-based training on job accommodations and 
employment service delivery to better serve VR&E employees and 
Veterans.

    Concluding Remarks

    VR&E Service will continue to assess and improve the delivery of 
vocational rehabilitation services to a most deserving active military 
and Veteran population: those men and women who have incurred a 
service-connected disability. We have developed and fielded 
comprehensive and detailed training, conducted significant oversight, 
and continue to focus on efforts to enhance both service delivery and 
the actual services we provide.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer questions from you or any of the other members of the 
Subcommittee.

                                 <F-dash>

                        Statement For The Record

                     PARALYZED VETERANS OF AMERICA

    Chairman Flores, Ranking Member Takano, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA), thanks you for the 
opportunity to submit our views pertaining to the VA's Vocational 
Rehabilitation and Employment (VR&E) program. PVA appreciates the fact 
that you are reviewing this program that is intended to help those 
veterans that sustained disabilities as a result of their military 
service that may be inhibiting their progress as they consider future 
employment, or work towards improving their quality of life. We support 
this Subcommittees concern and effort as it recommends improvements for 
this program that can help the men and women that have honorably served 
their nation and are making an effort to transition back to the 
civilian world.
    The purpose of the VR&E program, as authorized under Chapter 31 of 
title 38 USC, is to provide comprehensive services to address the 
employment barriers of service-connected disabled veterans in an effort 
to achieve maximum independence in daily living, and to obtain and 
maintain gainful employment. Ultimately, a goal of the VR&E program is 
to provide services to severely disabled veterans that will help them 
achieve the highest quality of life possible.
    Information from the recent GAO report ``VA VOCATIONAL 
REHABILITATION AND EMPLOYMENT, Further Performance and Workload 
Management Improvements Are Needed,'' (GAO-14-61) highlights some 
issues that will require attention and continued oversight of this 
important VA program. PVA generally concurs with the findings of the 
report and we likewise support the recommendations presented in the 
report. The members of PVA, veterans with spinal cord injury or 
disorder, tend to be higher volume users of VR&E services. As such, we 
would like to offer a few areas that could be improved in VR&E.

    Eligibility Period

    Currently, to be eligible for VR&E a veteran must have been 
discharged under circumstances other than dishonorable and have a 
disability rating of 20 percent or more that was incurred in, or 
aggravated by their service. The eligibility period to receive VR&E 
services is within a 12-year period beginning on either: (1) the date 
of separation from military service, or (2) the date the veteran 
receives a disability rating from the VA. The veteran must be in need 
of vocational rehabilitation in an effort to overcome employment 
barriers caused by such service-connected disability. VR&E provides for 
48 months of entitlement to participate in the program. Unfortunately 
veterans only have twelve years from the date of the initial VA 
disability rating notification to utilize the program, with an 
exception for those with a serious employment disability. Although the 
eligibility period for VR&E was not a specific component of the GAO 
report this limiting factor could be detrimental to the success of a 
veteran's rehabilitation.
    PVA and the other co-authors of the The Independent Budget, 
Disabled American Veterans, AMVETS, and Veterans of Foreign Wars, 
strongly believe that this 12-year eligibility period should be 
eliminated and all veterans with employment impediments should qualify 
for VR&E services. Many veterans are not aware of the VA's VR&E program 
and how it can be used by disabled veterans' to improve their lives. 
Often veterans learn of the VR&E services while talking to a VSO 
service officer or from information received from a service 
organization several years after their discharge. At that time they may 
have very few years remaining to utilize the program, or may be past 
the eligibility period.
    After severe injuries such as traumatic brain injury (TBI) or 
spinal cord injury (SCI) a veteran requires years to complete 
rehabilitation and make the adjustment to basic activities of daily 
living. During this time he or she is focused on recovery and the 
activity of returning to work is not a top priority for the veteran. 
Nevertheless, the veteran's eligibility is elapsing.
    Additionally, as many disabled veterans grow older, their service 
connected disability may impose further restrictions on the veteran, 
thus preventing him or her from continuing their civilian work 
activities. The veteran may still have the economic need and the desire 
to work for an additional ten or twenty years. With the 12-year time 
limitation, service connected disabled veterans become disqualified and 
not able to utilize the VR&E services later in life to maintain their 
active productive lifestyles.

    Remove the Cap on Independent Living

    The Independent Living (IL) Program, established by Congress in 
1980 as an option within the Vocational Rehabilitation and Employment 
program to facilitate the provision of services, training, or equipment 
to veterans with severe disabilities. This program began as a pilot 
program with a limited enrollment of 500 severely disabled veterans 
each year. Since its beginning the program has seen periodic 
incremental increases in the maximum enrollment. Although the program 
has proven to benefit disabled veterans during their rehabilitation, 
existing legislation continues to limit, or cap the yearly enrollment. 
More than a decade of combat has produces many veterans that could 
benefit from assistance from the Independent Living option. Congress 
should remove the cap of 2,700 per year for Independent Living 
enrollment and vocational rehabilitation counselors should be trained 
and encouraged to recommend the IL program when it could benefit a 
veteran's rehabilitation.

    Reduce Counselor Caseload

    As of March 2013, the VR&E field staff totaled 1,281, of which 890 
were vocational rehabilitation counselors. The average caseload for 
counselors at that time was 139 veterans, a decline from 152 reported 
in FY 2009. We believe this caseload is excessive to achieve the 
results that could be realized. PVA has a vocational rehabilitation 
employment program that is currently located in six metropolitan 
areas--Long Beach, Augusta, Boston, Minneapolis, San Antonio, and 
Richmond. Each office is located in a VA hospital, at the spinal cord 
unit to work primarily with spinal cord injured veterans and other 
seriously disabled veterans. Although spinal cord injured veterans are 
considered seriously disabled by the rehab industry standards, thus 
difficult to place in employment, PVA's program has had a remarkable 
success rate for placing disabled veterans in employment. Since the 
rehab profession considers a caseload of 125 for one counselor to be 
the maximum, PVA has strived to keep councilors' workloads below that 
number. This has allowed each counselor to spend more time with each 
veteran, explore all impairments to employment such as day care for 
children or transportation problems, and work to find solutions for 
these issues. They also develop employment contacts throughout the 
region that are interested in hiring veterans for full-time employment, 
or perhaps part-time employment. Reintroduction to employment often 
starts as part time, allowing the veteran to become oriented back into 
the workplace. This individual attention and guidance requires extra 
time from the counselor, time that is not available if their caseload 
is excessive. For this reason, we believe Congress should authorize 
sufficient staff and appropriate sufficient dollars to reduce the 
caseload.

    Increased Funding for VR&E

    The number of servicemembers, including National Guard and 
Reservists who have recently separated, and over the next 5 years will 
leave active duty is an unprecedented total. Many will leave active 
duty with a service connected disability, while others will develop a 
disability related to their service after leaving active duty. 
Congressional funding for the VR&E program must keep pace with 
veterans' demand for this service. Our veterans have made a sacrifice 
for our nation, which is why our leaders must make a concerted effort 
to ensure that access to education, employment, and training 
opportunities are available for their transition to the civilian job 
market. There is a need for increased funding for additional staffing 
for VR&E including additional vocational rehabilitation counselors and 
employment coordinators. The current counselor to client ratios of 
approximately 139 veterans to one counselor is an unacceptable ratio. 
With many seriously injured service members returning from Iraq and 
Afghanistan who will need this assistance, PVA believes the funding for 
VR&E should be increased.
    Chairman Flores, Ranking Member Takano, and members of the 
Subcommittee, PVA would like to thank you for this opportunity to 
express our views on the VA's VR&E program. We thank you for continuing 
the work in this Subcommittee to ensure that veterans have the best 
available programs, options, and opportunities as they transition to 
the civilian world.

    Information Required by Rule XI 2(g)(4) of the House of 
Representatives

    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
    Fiscal Year 2013
    National Council on Disability--Contract for Services--$35,000.
    Fiscal Year 2012
    No federal grants or contracts received.
    Fiscal Year 2011
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program--
$262,787.

                        WOUNDED WARRIOR PROJECT

    Chairman Flores, Ranking Member Takano, and Members of the 
Subcommittee:
    Wounded Warrior Project (WWP) appreciates your holding this hearing 
and welcomes the opportunity to share our perspective on VA's 
Vocational Rehabilitation and Employment (VR&E) Program.
    With WWP's mission to honor and empower wounded warriors, our 
vision is to foster the most successful, well-adjusted generation of 
veterans in our nation's history. With military careers often cut short 
by life-altering injuries, it is particularly important that this 
generation of wounded warriors be afforded the tools, skills, 
resources, education, and support needed to find their new passion, 
secure employment, and develop fulfilling careers in ways that matter 
to them and their families. But, for a variety of reasons, vocational 
rehabilitation, education, and employment programs designed to give 
disabled veterans the help they need to gain success in the workforce 
are too often failing them. The VA's VR&E program, in particular, 
should be a key transitional pathway for wounded warriors.
    Wounded warriors and WWP's field staff--who work daily with our 
wounded warriors across the country--report wide-ranging variability in 
program administration and education/employment plan approvals, 
counselor skills, experience, understanding of TBI and PTSD, and 
interpretation and knowledge of the program's services. Though some 
warriors report positive experiences and have worked with dedicated 
counselors, this represents the exception and not the norm.
    WWP annually surveys our alumni of servicemembers and veterans 
wounded after 9/11 to learn more about their physical and mental well-
being and progress toward achieving economic self-sufficiency. In 2013 
of those pursuing an education--only about 20 percent were using VR&E 
while 54 percent opted to use the Post 9/11 GI Bill to finance their 
education.\1\  Given that VR&E provides counseling and other supports 
and is limited to service-connected disabled veterans, it is striking 
that the majority of our alumni are selecting the Post 9/11 GI Bill--
which does not provide the counseling and assistance that VR&E offers. 
Some warriors and field staff offer the reasoning that the Post 9/11 GI 
Bill is easy access and a swifter means to get an education. Many 
others report it is because they would have ``more freedom to pursue 
what they want, not what the vocational counselor tells them.''
---------------------------------------------------------------------------
    \1\  Franklin, et al, 2013 Wounded Warrior Project Survey Report, 
71 (July 2013). The percentage of alumni using the Post 9/11 GI Bill 
has continued to increase (53% in 2012, some 46% in 2011, and nearly 
28% in 2010) while the percentage of alumni reporting the use of VR&E 
continues to decline (21% in 2012, down from almost 25% in 2011, and 
some 36% in 2010).
---------------------------------------------------------------------------
    Warriors have reported instances of VR&E counselors challenging 
their employment aspirations by denying them access to their program of 
choice and pressing them instead to pursue ``any job'' as a goal. In 
other instances, wounded warriors seeking to go back to school to earn 
a second degree--to better compete in the job market--have met 
objection from counselors who view VR&E simply as a ``jobs program.'' 
Still, others, particularly those with TBI and PTSD, have had to try to 
convince VR&E counselors--who do not adequately understand TBI and PTSD 
(and the broad spectrum of these disabilities and their impact on an 
individual's abilities and functional limitations)--that they would be 
able to handle and even succeed in higher education or employment. The 
prevalence of TBI and PTSD among this generation's warriors underscores 
the importance of ensuring that programs like VR&E are responsive to 
the unique circumstances associated with those conditions.
    Additionally, warriors report delays in receiving VR&E services, 
difficulty communicating and scheduling with their counselors, and 
reduced opportunities to achieve successful and timely rehabilitation. 
The size of counselors' caseloads has particularly limited their 
ability to provide adequate on-going support and assistance to veterans 
throughout the course of their education or training program, 
especially to those with TBI and PTSD who need such supports.
    The following comments are emblematic of the experiences of many:
    ``In my experience working with Voc Rehab counselors, many of my 
veterans were exasperated by their counselors and oftentimes felt as 
though their counselors had such a large caseload that they were not 
getting the attention needed . . . and more often than not being 
brushed off when they asked for assistance.''
    ``While many of the Voc Rehab staff are sensitive to the veteran's 
needs, they do not seem to, as a whole, have an understanding of where 
the veteran is coming from . . . they are quick to write off a 
veteran's career choice due to their disability rather than take into 
account things such as passion, determination, and drive.''
    ``Many veterans have to justify why they want a specific degree or 
[employment goal] and that doesn't always match up with what the 
counselor believes that veteran can be successful at based on their 
history or [medical] diagnosis.''
    The recent Government Accountability Report on VR&E highlights 
VR&E's workload management challenges and gaps in VR&E staff 
training.\2\  The wide variability in counselor caseloads among the 
regional offices is particularly concerning, as is the fact that the 
program is just now--at the end of 2013 and into 2014--providing new 
staff training courses on mental health to improve counselors' ability 
to assist veterans with PTSD and other mental health issues.\3\ 
---------------------------------------------------------------------------
    \2\ U.S. Government Accountability Office, ``VA Vocational 
Rehabilitation and Employment: Further Performance and Workload 
Management Improvements are Needed,'' GAO-14-61 (2014).
    \3\ Id. at 27 and 32.
---------------------------------------------------------------------------
    VR&E counselors need to be sensitive and not only understand the 
struggles, but also the strengths, of warriors with TBI and PTSD so 
that they, in turn, can help warriors recognize that they are not 
``broken,'' but continue to have great potential. They must be partners 
in the warriors' rehabilitation, not critical gatekeepers who too 
readily dismiss ``unrealistic'' aspirations. In working with this 
generation, counselors must also understand the very profound 
disorientation experienced by warriors whose lives and life-plans have 
been upended and out of their control. As one put it, the ``For me the 
most difficult part [of the transition] is finding purpose. [I] never 
really had to think about my purpose when I was in the Corps.'' \4\  A 
VR&E counselor must have the sensitivity, training and experience to 
help that warrior find new purpose, or to link him to appropriate 
professional help. But even the most capable, empathetic counselor--
challenged with 150 other ``cases'' to manage--is unlikely even to have 
sufficient time to provide that warrior the needed level and kind of 
support. More appropriate staffing levels must be a component of 
refocusing and re-energizing this important program. In all, we urge 
the Subcommittee to make the VR&E program a greater priority through 
budgetary, programmatic, and outcomes-based action.
---------------------------------------------------------------------------
    \4\  Franklin, et al, 2013 Wounded Warrior Project Survey Report, 
108 (July 2013).

---------------------------------------------------------------------------
                                 <F-dash>

                        Question For The Record

    At the HVAC EO 2/27 hearing on the VR&E program, Chairman Flores 
asked VA witness Jack Kammerer the ranking of the CWINRS program in the 
VR&E program IT program resourcing for FY15.
    The following is VA's response:
    Response:   Funding for CWINRS enhancements to develop the next 
VR&E case management system remains on the list of IT development 
requirements for resourcing. VA continuously reviews its overall list 
of IT requirements to determine if projects can move forward as 
additional funding becomes available. It is not possible to project if 
and when funding will become available, as requirements continue to 
evolve. Currently, this development project is not funded in FY14 or 
FY15.

                                    
</pre></body></html>
